HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With Computer
Sciences Corporation," (A‑03-06-00513)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With Computer
Sciences Corporation," (A‑03-06-00513)
April 20, 2007
Complete Text of Report is available in PDF format (92 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by the Program Support Center (PSC) and other components of the Department of Health and Human Services (HHS) in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR) provide, among other things, that HHS agencies award each contract to a responsible party and document compliance with requirements for full and open competition and the determination that the price was fair and reasonable.
On behalf of the Office of Inspector General (OIG), PSC awarded a fixed-price contract to Computer Sciences Corporation (the Corporation) to (1) review and revise the OIG data collection instrument; (2) conduct medical reviews to determine whether payments for medical care and equipment provided to beneficiaries were appropriate; and (3) provide the comments, impressions, and overall findings of the reviewing physicians and registered nurses. Our objective was to determine whether PSC complied with FAR and HHSAR requirements during the award process involving the Corporation. PSC complied with the requirements.